                                  EVALUATION




 U.S. FISH AND WILDLIFE SERVICE
 CONSERVATION EASEMENT
 ENFORCEMENT AND MONITORING





Report No.: WR-EV-FWS-0003-2011     January 2012
              OFFICE OF 

              INSPECTOR GENERAL 

              U.S.DEPARTMENT OF THE NTERIOR


                                                                                JAN 0 9 2012
Memorandum

To: 	          Daniel Ashe
               Director, U.S. Fish an~ Wil~life ~erv~

                        Kenda~~dkif
From: 	        Mary L.         1
               Acting Inspector General       r'
Subject: 	     Evaluation Report- U.S. Fish and Wildlife Service Conservation Easement
               Monitoring and Enforcement
               Report No. WR-EV-FWS-0003-2011

        This memorandum transmits the findings of our evaluation report of the U.S. Fish and
Wildlife Service' s (FWS) ability to protect conservation easement assets through effective
monitoring and enforcement. We found that FWS is making an effort to monitor and enforce its
inventory of conservation easements. FWS is constrained, however, by a variety of factors.
These include the varying level of its resources, competing Federal incentives, an absence of
service-wide monitoring and enforcement guidance, and insufficient documentation of easement
monitoring.

        We believe that FWS needs to address these issues to ensure that the advantages
promised by its conservation easements actually benefit the intended habitat and wildlife and
protect the public's investment.

        To help FWS improve its conservation easement monitoring and enforcement activities,
we included six recommendations in our draft report. Based on your November 15, 2011
response to our draft report, we consider three of the recommendations to be unresolved and the
other three resolved but not implemented.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit report issues, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the unresolved
recommendations, as well as target dates and title(s) of the official(s) responsible for
implementation. Please address your response to:




                               Office of Inspector General   I Washington, DC
       Ms. Kimberly Elmore
       Assistant Inspector General for Audits, Inspections, and Evaluations
       U.S. Department of the Interior

       Office of Inspector General

       MS 4428 - MIB

       1849 C Street, NW.

       Washington, DC 20240


        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5745.




                                               2

Table of Contents
Results in Brief ....................................................................................................... 1


Introduction............................................................................................................. 2

   Objective ............................................................................................................. 2

   Background ......................................................................................................... 2


Findings................................................................................................................... 5

   Conservation Easements are not Uniformly Monitored...................................... 5

   Financial Incentives for Violating Easement Provisions .................................... 6

   No Bureau-wide Guidance .................................................................................. 7

   Conservation Easement Monitoring is Poorly Documented ............................... 8

   Promising Practices ............................................................................................. 9

      Digital Aerial Map Overlays ........................................................................... 9

      Landowner Outreach ....................................................................................... 9

      High Resolution GPS-Linked Cameras ........................................................... 9

      Electronic Annotation of Easements ............................................................. 10


Conclusion and Recommendations....................................................................... 11

   Conclusion......................................................................................................... 11

   Recommendations ............................................................................................. 11


Appendix 1: Scope and Methodology................................................................... 14

   Scope ................................................................................................................. 14

   Methodology ..................................................................................................... 14


Appendix 2: FWS Conservation Easement File Review and Violations Noted... 15


Appendix 3: Department Response ...................................................................... 16


Appendix 4: Status of Recommendations............................................................. 21

Results in Brief
Conservation easements are a tool used by the U.S. Fish and Wildlife Service
(FWS) to keep agricultural lands in production, while also providing conservation
benefits. Its inventory of conservation easements already numbering in the tens of
thousands, FWS acquires an average of around 300 additional conservation
easements each year. With this in mind, we conducted an evaluation to determine
if FWS is protecting conservation easements through adequate monitoring and
enforcement.

FWS is making an effort to monitor its large inventory of conservation easements
and enforce easement provisions to preserve the conservation and habitat benefits
they provide. Easement monitoring and enforcement efforts, however, are highly
variable from one location to another. Further, USDA programs and other factors
create financial incentives for land owners to violate easement provisions. In
addition, FWS is in need of bureau-wide guidance for administering, monitoring,
and enforcing easements. Finally, easement monitoring efforts are poorly
documented. We believe that FWS needs to address these issues to ensure that the
advantages promised by current FWS conservation easements, as well as future
acquisitions, actually benefit intended habitat and wildlife, and protect taxpayer
investment.

In June 2011, we issued a Notice of Potential Finding and Recommendation
(NPFR) to the FWS chief law enforcement official. We indicated the need for
FWS to conduct a workload and workforce analysis of its conservation easement
monitoring and enforcement responsibilities. The purpose of these analyses is to
help FWS determine the resources it needs to detect, deter, and prosecute
easement violations. FWS responded to the NPFR, stating that it concurred with
our recommendation and that it will take the necessary steps to conduct a
workload and work force analysis.




                                                                                   1
Introduction
Objective
Our objective was to determine if the U.S. Fish and Wildlife Service (FWS) is
protecting conservation easement assets through effective monitoring and
enforcement efforts.

Background
Conservation easements are cost-effective tools through which private
landowners and the Federal Government enter into mutually beneficial
agreements. These legal agreements keep working agricultural lands in production
while delivering conservation benefits to the affected habitat and wildlife.
Conservation easements allow the private landowner to retain ownership of the
land that is under the conservation easement with certain binding restrictions on
specified activities on that portion of the property.

FWS’s easement program benefits habitat, wildlife, and landowners and is a
prime example of a Federal program that works cooperatively on multiple levels.
FWS manages 32,848 conservation easements, 95 percent of which are in
Regions 3 and 6. 1

Conservation easements are beneficial in that they are perpetual and typically cost
a fraction of what it would cost to acquire absolute ownership of the land. The
cost savings, however, varies depending on the market value and the restrictions
imposed. Another benefit is that wetlands and grasslands are preserved in their
original states. In addition, landowners continue to pay taxes on their easement
property.

FWS considers the vast majority of its conservation easements minimally
restrictive. This type of easement takes very few rights away from a property
owner and has the least impact on the value of their property in comparison to
other easements. Examples of minimally restrictive easements include the
wetland, grassland, and habitat easements used to protect migratory waterfowl
habitat in Regions 3 and 6.

Wetland easements are permanent agreements in which a landowner receives a
lump sum payment in exchange for agreeing not to drain, burn, level, or fill
wetlands. Grassland easements are permanent agreements in which a landowner
receives a lump sum payment in exchange for agreeing to keep their land in grass,
thus not cultivating. Mowing, haying, and grass seed harvesting for these
easements must be delayed until after July 15 each year. Habitat easements are
similar to grassland easements.
1
 Region 3 includes the states of Illinois, Indiana, Iowa, Michigan, Minnesota, Missouri, Ohio, and
Wisconsin. Region 6 includes the states of Colorado, Kansas, Montana, Nebraska, North Dakota, South
Dakota, Utah, and Wyoming.

                                                                                                      2
A restrictive conservation easement, on the other hand, significantly limits the
property owner’s use of the property. For example, a restrictive easement may
prohibit any disturbance of the soil or vegetation, even haying or grazing. The
property owner retains fewer rights, and the easement has a significant impact on
the value of the property.

FWS also manages conservation easements obtained from the Farm Service
Agency, successor to the Farmers Home Administration (FmHA). The easements
were transferred to FWS for management and oversight responsibility in
accordance with a 1987 interagency agreement.

Since 1921, FWS has spent $397 million to purchase conservation easements.
FWS continues to acquire additional conservation easements. In the last 5 fiscal
years, FWS acquired 5 percent of its easements or 1,744 easements, at a cost of
$95.6 million. At 24 percent, this is almost a quarter of total acquisition funds
spent since inception.

               FWS Easements Acquired from 2006 to 2010

          Year               Number of Easements              Acquisition Costs
          2006                       392                         $16,300,529
          2007                       369                         $16,064,971
          2008                       284                         $18,633,880
          2009                       330                         $15,246,059
          2010                       369                         $29,397,806
          Total                     1,744                        $95,643,245

Figure 1. The number of easements acquired by FWS from 2006 to 2010 and the total cost
for each year.

The Land and Water Conservation Fund Act and Migratory Bird Conservation
Act provide the primary authority for conservation easement acquisition. The
Land and Water Conservation Fund Act permits acquisitions for the National
Wildlife Refuge System. This includes acquisitions for the protection of
endangered and threatened species. It also includes acquisition of areas authorized
by certain sections of the Refuge Recreation Act, the Fish and Wildlife Act of
1956, and other specific acts of Congress. The Migratory Bird Conservation Act
authorizes FWS to use funds generated from Federal Migratory Bird Hunting and
Conservation Stamps and from some appropriations received in the early years of
the program to acquire important migratory bird areas for migration, breeding,
and wintering. The Migratory Bird Conservation Funds have been used to
purchase absolute ownership of over 3 million acres and easements or leases on
another 2.4 million acres.



                                                                                         3
FWS monitors easements by way of aerial and ground checks by FWS law
enforcement officials, or in some cases, other refuge officials. Refuge law
enforcement officials help monitor almost 33,000 conservation easement
contracts with non-Federal landowners. Common easement violations include –

   •   draining, filling, and burning of wetland easements;
   •   early haying or burning of grassland easements; and
   •   mowing or burning of habitat easements.

Typical monitoring actions used by FWS include review of current aerial
photographs, which are compared to file map outlines of the easement.




                                                                              4
Findings
FWS is making an effort to monitor its large inventory of conservation easements,
but is not doing so effectively. Specifically, conservation easement monitoring
and enforcement is highly variable from location to location; the documentation
for monitoring these easements is poor, and several factors create financial
incentives for land owners to violate conservation easements. FWS has an
opportunity to create Bureau-wide guidance for administering, monitoring, and
enforcing easements.

A few FWS field sites we visited had implemented processes that improve
conservation easement administration and management. In these instances, field
sites are using technological advances, public data, and landowner outreach.

Conservation Easements are not Uniformly
Monitored
The level of easement monitoring varies from one site to another depending on
the number of law enforcement personnel assigned to the site, but, FWS field
offices are not uniformly monitoring and enforcing easements. For example,
while some field offices have implemented vigorous monitoring and enforcement
efforts and technologies, others rely substantially on third parties or adjacent
landowners to identify and report potential violations.

Resources are not uniformly dispersed and may be inadequate at some locations.
Some field offices have no dedicated law enforcement official (LEO). For
example –

   •	 Sand Lake WMD administers about 4,600 easements with 1 full time (FT)
      and 1 part time (PT) LEO;
   •	 Devil’s Lake Wetland Management District (WMD) administers about
      2,700 easements with 1 FT and 3 PT LEOs;
   •	 Fergus Falls WMD administers about 1,100 easements with 1 FT LEO;
   •	 Detroit Lakes WMD administers about 400 easements with 1 FT LEO;
      and
   •	 Balcones Canyonlands National Wildlife Refuge (NWR) administers 15
      easements with no dedicated LEO.

Service officials at Devil’s Lake WMD told us that they are not enforcing burning
violations in their district. They estimated that there are as many as 200 to 300
such violations each year. The LEO stated that, because they do not track burn
violations, he was unsure of any specific landowners who repeatedly violate the
easement agreements. The official further stated, "There can be days we can't use
aircraft [to do aerial surveillance] because there is so much smoke [from fires]."
Violation remediation efforts give priority to actions that lead to restoration by the
landowner to the original easement condition. Other consequences include fines

                                                                                    5
and lawsuits. In some fine schedules, the fine for conservation easement
violations is $500. FWS has not evaluated whether the current fines and penalties
structure sufficiently deters landowner violation of easement provisions.

According to Government Accountability Office report number 11-144, dated
December 2010, FWS commissioned the International Association of Chiefs of
Police in 2005 to develop a staffing deployment model. The purpose of the model
was to help FWS determine its overall law enforcement staffing needs and assign
new LEOs to specific refuges. Risk assessments of certain illegal activities,
however, were not included in the model. The Chief of the Division of Refuge
Law Enforcement wanted to update the model, reevaluate the weighted values,
and include assessment components omitted from the initial analysis, but had no
specific plans to do so.

We acknowledge that not all conservation easements require the same level of
monitoring. FWS, however, does not have a prioritized approach to applying the
necessary resources for effective monitoring and enforcement of easements.
Without a workforce analysis, there is no assurance that an adequate number of
LEOs manage current conservation easements. More work is needed for FWS to
identify and assign the resources necessary to enforce conservation easement
agreement provisions.

 Recommendations

    1. Conduct a workload and workforce analysis of law enforcement and
       monitoring resources to determine the resources needed to protect
       easement assets against violation.

    2. Evaluate conservation easement violation fines and penalties to assess
       whether or not the penalties sufficiently deter violations, and make
       subsequent changes to the structure as appropriate.


FWS provided us with a response to the Notice of Potential Finding and
Recommendation we issued in June 2011 that it concurs with our
Recommendation 1. FWS stated that it will contract with the International
Association of Chiefs of Police to perform a risk-based assessment, develop a
threat matrix, and a rerun of the 2005 Deployment Model using these new
parameters with work to be completed by December 31, 2012.

Financial Incentives for Violating Easement
Provisions
Farmers have financial incentives to violate easement provisions. Financial
incentives resulting from changes in farming technology and USDA Farm Bill
programs have increased FWS’s monitoring and enforcement burden.

                                                                                 6
As farm implements, such as drills, sprayers, and tractors, become larger,
landowners could increasingly view small isolated wetlands as nuisance spots
because they are tired of working around them. Farm Bill programs
unintentionally create a financial incentive for landowners to violate wetland
easement provisions. We believe that USDA should be aware of the conservation
easements FWS has acquired so that it can ensure that payments to farm operators
for Farm Bill programs properly reflect limitations on land use imposed by FWS
conservation easements. FWS realty officials told us that FWS conservation
easement information is provided to agencies of the USDA when specifically
requested, but that this information is not provided on a routine or regular basis.

One Farm Bill program that offers financial incentive, “prevented planting,”
compensates a landowner for up to 60 percent of the revenue that would be
generated by normal production for acres that cannot be seeded to a crop.

Using USDA’s approved commodity prices for March 2011 and average crop
yields for the area in 2010, we estimate that a farmer growing corn in Towner
County, ND, which is administered by FWS’ Devil’s Lake WMD, could obtain a
prevented planting insurance payment of approximately $360 per acre. To qualify
for payment, the operator must make only an attempt to farm the acres, which are
typically wetland acres. Simply plowing the ground once in the fall, when
wetlands are naturally dry, can constitute an attempt. To facilitate plowing,
landowners oftentimes will first burn off the wetland vegetation. These burns
commonly occur on conservation easement protected wetlands in absence of the
required permit from the administering district, which is a violation of the
easement provisions.

This creates situations in which farmers may see fines only as a cost of business.
For example, in certain fee schedules, the fine for a conservation easement
violation is $500. The financial incentive of $360 an acre provided by the USDA
Farm Bill for a hypothetical 10 acre wetland yields a potential financial benefit to
the farmer of $3,600. In this scenario, the worst case financial gain is $3,100,
providing no real disincentive to violating easement provisions.

 Recommendation

     3. Regularly provide easement location information to USDA.


No Bureau-wide Guidance
FWS does not have Bureau-wide guidance for administering, monitoring, and
enforcing easements. FWS Regions 3 and 6 developed and implemented the
“Administrative and Enforcement Procedures for FWS Easements within the
Prairie Pothole States” (Easement Manual) in October 2005. Subsequently, in
December 2010, Region 6 implemented a second edition of the Easement Manual,
                                                                                   7
applicable to only Region 6. These manuals describe how to maintain
documentation for each easement administered by field offices in these regions.
They also provide a common framework of actions that should be used to monitor
easements and enforce their terms and conditions.

No specific guidance has been developed for use by field offices in FWS’s other
regions. With few exceptions, field offices in the other FWS regions administer
fewer than 20 easements each. Even so, these offices would benefit from the
development and implementation of basic guidance on the administration and
monitoring of easements to ensure a minimum level of attention to this activity.
Based on our review of the recently updated Region 6 Easement Manual, we
concluded that this guidance document could be applied Bureau-wide, with minor
modification.

 Recommendation

    4. Establish and implement uniform guidance for administering,
       monitoring, and enforcing easements.


Conservation Easement Monitoring is Poorly
Documented
FWS’s easement monitoring efforts are poorly documented. We found that field
office files contained only copies of the easement and documentation related to
the original acquisition (e.g., title, drawings, correspondence, etc.). The Easement
Manual developed by Regions 3 and 6 requires field offices to include a
chronological list of events in each easement file. Regions 3 and 6 must use this
specific form to maintain a permanent record of events, notes, observations, and
conversations concerning the easement. Other field offices in other regions are not
required to use a chronological list of events. This document, or a suitable
alternative, however, could be used by all regions in easement files to document
FWS easement monitoring activities and results.

We reviewed a total of 87 randomly-selected easement files at 7 field offices
administering 9 refuges or districts. We also judgmentally selected another 17
files for review (see Appendix 2). The files we reviewed either did not contain a
chronological list of events or the list was not current and complete. Further, the
files did not contain other documents providing evidence of current and ongoing
monitoring by the field office. Because FWS easements are perpetual, a failure to
effectively document current monitoring efforts could make future enforcement
difficult.




                                                                                  8
 Recommendations

    5. Document monitoring activities in the easement files.

    6. Develop an automated easement inspection process to record the
       easement monitoring history.


Promising Practices
Some FWS field sites have implemented processes that serve to improve
conservation easement administration and management by using technological
advances, public data, and landowner outreach.

Digital Aerial Map Overlays
Detroit Lakes WMD, MN, identifies and detects easement violations with use of
digital aerial map overlays. Like all offices we visited, this WMD uses ArcGIS
software. This software is a geographic information system that provides accurate
geographic information and tools to personalize maps for decision-making and to
review aerial photos of potential easement violations.

Detroit Lakes WMD also creates additional digital map overlay layers of the
easement map, drainage facility map, and county assessor map that can be layered
above imported aerial photos of the easements. This improves easement
monitoring by visually clarifying exact easement boundaries, protected wetlands,
and assessor parcel numbers so as to look up the current owner. It also allows
detection of past wetland drainage or ditching violations that were not tracked
during regular aerial inspections. This is achieved by comparing the aerial photo
and the wetland easement map over time and seeing the reduction of the wetland
size not created naturally, such as by reduction in precipitation.

Landowner Outreach
Detroit Lakes WMD, MN, and Devils Lake WMD, ND, stay abreast of changes
of ownership and keep landowners and their tenants apprised of easement
requirements through landowner outreach. In contrast, we noted that most offices
just send notifications reminding landowners of their easement responsibilities
every 3-5 years or in the year that FWS notices a change in ownership.

High Resolution GPS-Linked Cameras
Improved detection of aerially-observed easement violations through the use of
aircraft belly-mounted high resolution GPS-linked digital cameras are conducted
at Detroit Lakes and Fergus Falls (Fergus Falls) WMDs. Region 3 uses this
method, which allows LEOs to photograph all of their easements. The new high-
resolution process was originally used by the FWS Habitat Population Office for
bird surveys. Benefits include –



                                                                                  9
   •	 images that are automatically geo-referenced to the point where it was
      captured so the person using the photograph knows to which easement the
      photograph correlates;
   •	 photographs that are taken at 9,000 feet instead of 1,000 feet, as done in
      the past;
   •	 images that are adjustable in terms of brightness and zoom; and
   •	 image process and review time that is reduced from 4 days to 2 and a half
      days.

Electronic Annotation of Easements
Devil’s Lake WMD uses ArcPad software to electronically annotate easement
violations. The software notes violations at the points on a GIS map where they
are spotted, as opposed to the former process in which LEOs marked violations on
a paper aerial map.




                                                                              10
Conclusion and Recommendations
Conclusion
FWS derives substantial benefits for wildlife from the acquisition of conservation
easements and does so at a lower cost than if the lands were purchased outright.
The benefits to affected habitat and wildlife can be quickly lost, however, if FWS
is not diligent in ensuring that landowners adhere to the restrictions on the use of
their property that FWS has purchased. Attention to workload, violation
deterrents, guidance and improved documentation will help to safeguard FWS
conservation easement assets and the wildlife it seeks to protect.

Recommendations
We recommend that FWS:

   1.	 Conduct a workload and workforce analysis of law enforcement and
       monitoring resources to determine the resources needed to protect
       easement assets against violation.

       Agency Response: FWS concurs with the recommendation and states that
       it has contracted with the International Association of the Chiefs of Police
       (IACP) to develop a law enforcement risk assessment for each unit of the
       National Wildlife Refuge System (NWRS). This collaborative effort
       includes the creation of a threat assessment and matrix and improvement
       of the 2004 IACP Deployment Model for the NWRS. Implementation of
       the revised model will provide better management of law enforcement
       resources throughout the NWRS. The targeted completion date for this
       recommendation is December 31, 2012.

       OIG Reply: We consider this recommendation resolved, but not
       implemented. We want to reiterate that our recommendation is for FWS to
       gain information useful in determining the monitoring and enforcement
       staffing resources it needs to protect all easement assets against violation.

   2.	 Evaluate conservation easement violation fines and penalties to assess
       whether or not the penalties sufficiently deter violations, and make
       subsequent changes to the structure as appropriate.

       Agency Response: FWS concurs with this recommendation. It will lead
       an effort to conduct the evaluation and commit to making changes as
       appropriate. The targeted completion date for this recommendation is
       December 31, 2012.

       OIG Reply: We consider this recommendation resolved, but not
       implemented.

                                                                                  11
3.	 Regularly provide easement location information to USDA.

   Agency Response: FWS appeared to concur with this recommendation. In
   its response, FWS states that its Region 6 Administrative and Enforcement
   Procedures for FWS Easements manual, “requires wetlands management
   district offices to annually provide updated easement information to their
   local USDA service offices.” FWS also states that its Region 8 agreed
   with providing USDA with FWS easement information, including
   easement location, type, and related restrictions. FWS states, however, that
   it was unrealistic for “staffs to adequately monitor all burn violations in
   many areas” and it was “even more unrealistic to expect USDA to monitor
   easement lands to ascertain eligibility for Farm Bill benefits.” FWS states
   that the recommendation process “…will be included in a larger process of
   a standardized nationwide Service policy development” with a targeted
   completion date of December 31, 2013.

   OIG Reply: It is unclear whether FWS fully concurs with this
   recommendation. Therefore, we consider the recommendation unresolved.
   In its response, FWS does not clarify what easement information would be
   required reporting to USDA and whether the information would be
   reported by all FWS regions on a consistent basis in the Service’s process
   of developing a “standardized, nationwide Service policy.”

4.	 Establish and implement uniform guidance for administering, monitoring,
    and enforcing easements.

   Agency Response: FWS concurs with this recommendation and states
   that it “stands ready to lead in the development of an over-arching
   framework, as well as assist other regions as appropriate in the
   development of more specific easement administration and enforcement
   guidance.” The targeted completion date for this recommendation is
   December 31, 2013.

   OIG Reply: We consider this resolved, but not implemented.


5.	 Document monitoring activities in the easement files.

   Agency Response: FWS does not concur with this recommendation. It
   states that it has a process already in use. It states that Regions 3 and 6 use
   of “Chronological List of Events” form has become “less useful” to
   document an important easement event because officers and managers use
   official notes and memoranda to the file to capture relevant information
   that may be used later in a legal proceeding. In addition, FWS states that



                                                                                12
   Region 6 will continue to use standard operating procedure to monitor and
   manage easements annually.

   OIG Reply: We consider this recommendation unresolved. FWS states
   that a monitoring documentation process is “already in use.” From our
   discussions with local FWS officials we found that monitoring was
   occurring. The files we reviewed, however, showed little or no evidence of
   routine monitoring. We checked for the Chronological List of Events form
   during our file review because it was identified as a required process in the
   FWS Region 3 & 6 Administrative and Enforcement Procedures. As far as
   we know, FWS does not require monitoring documentation in other
   regions. We believe that routine monitoring activity should be documented
   servicewide. Further, if the Chronological List of Events form in each
   easement folder has become “less useful,” then another method of
   documentation should be developed.

6.	 Develop an automated easement inspection process to record the easement
    monitoring history.

   Agency Response: FWS does not concur with this recommendation. It
   states that its Law Enforcement Information Management and Gathering
   System and its future Incident Management and Reporting System would
   satisfy this recommendation.

   OIG Reply: We consider this recommendation unresolved. The systems
   FWS refers to in its response record only law enforcement incidents and
   do not document conservation easement monitoring history. Our
   recommendation was directed toward an automated process for recording
   routine easement monitoring history, which is in addition to documenting
   easement enforcement incidents only when infractions have been detected.
   We refer FWS to recommendation 5 for a possible resolution to this
   recommendation.




                                                                             13
Appendix 1: Scope and Methodology
Scope
We performed our evaluation in accordance with the “Quality Standards for
Inspections,” issued by the Council of the Inspectors General on Integrity and
Efficiency. Our scope included all conservation easements managed by FWS
since 1921. We believe that the work performed provides a reasonable basis for
our conclusions and recommendations.
.
Methodology
To perform our review we –
   •	 reviewed all applicable laws, rules and regulations, and FWS policies
       related to conservation easements;
   •	 interviewed FWS officials regarding conservation easement processes and
       policy;
   •	 interviewed U.S. Department of Agriculture (USDA) and USDA Office of
       Inspector General officials regarding USDA farm support programs;
   •	 reviewed a judgmental and random sample of conservation easement files;
       and
   •	 reviewed Government Accountability Office report # GAO-11-144 related
       to FWS use of staffing deployment model.




                                                                                 14
Appendix 2: FWS Conservation
Easement File Review and Violations
Noted
               Judgmentally Selected and Random Totals

       Field Office             Files Reviewed        Violations Noted
Balcones Canyonlands
                                      13                     0
National Wildlife Refuge
Detroit Lakes Wetlands
Management District                   10                     4
(WMD)
Devils Lake WMD                       17                     7
Fergus Falls WMD                      22                     7
Grasslands Wildlife
                                      12                     1
Management Area
Sand Lake WMD                         24                     5
Texas Mid-Coast Refuge
                                      6                      0
Complex (3 Refuges)
Totals                               104                    24

                           Randomly Selected Totals

                                Files Reviewed        Violations Noted
      Field Office
                                    Random                Random
Balcones Canyonlands
                                      13                     0
NWR
Detroit Lakes WMD                      7                     3
Devil’s Lake WMD                      17                     7
Fergus Falls WMD                      11                     3
Grasslands WMA                        12                     1
Sand Lake WMD                         21                     3
Texas Mid-Coast Refuge
                                      6                      0
Complex
Totals                                87                    17




                                                                         15
Appendix 3: Department Response
The Department’s response to the draft report follows on page 17.




                                                                    16
                                                                                                   u.s.
                                                                                             FISH & WILDl.IFE
                                                                                                 SERVICE




                                                                                             ~
                  United States Department of the Interior
                                  FISH AND WILDLIFE SERVICE
                                         Washington, D.C. 20240


In Response Reply to:
FWS/BPHC/PDM/DCN 049960


To:              Department ofthe Interior, Inspector General

Through:

From:

Re:              Comments on OIG Report N                         S-0003-2011

On behalf of the National Wildlife Refuge System, below are responses to the specific
recommendations, as well as other relevant comments on the balance of the subject report.

      • 	 On page 3 the report discusses FmHA conservation easements. Specifically, the report
          reads "FWS also manages conservation easements obtained from the Farm Service
          Agency, previously known as the Farmers Home Administration (FmHA). FmHA
          originally acquired these easements to assist farmers and families living in rural areas."

      There are two technical inaccuracies in these statements. First, FmHA did not become FSA.
      Under reorganization of USDA, the functions ofFmHA were transferred to FSA in 1994.
      FSA was previously called the Agricultural Stabilization and Conservation Service, or
      ASCS.

      Second, FmHA did not acquire these easements to "assist farmers and families." Rather, in
      "last resort" efforts to keep farmers on their lands, FmHA offered low interest emergency
      farm loans to farmers who could not otherwise obtain credit from commercial lenders. Some
      of these farmers defaulted on these loans, and their lands transferred to federal inventory.
      While in federal inventory, conservation easements with values commensurate with the
      outstanding loan amount were prescribed by FmHA and the land was re-sold, often times
      either to the original landowner or to those qualifying as "beginning" farmers at a much­
      reduced cost. The loans were forgiven; however, the lands were now encumbered with
      FmHA conservation easements.

      • 	 On page 3, the report states "The Land and Water Conservation Fund Act and Migratory
          Bird Conservation Act provide the primary funding ... "

Actually, it is not the MBCA that provides the funding; rather, it is the Migratory Bird Hunting
and Conservation Stamp Act that provides proceeds through the sale of duck stamps that funds
habitat conservation. This is stated correctly later on in the same paragraph.


                                  TAKE PRJDE®I!fo "'t
                                   INAMERICA~
                                                                                                     17
   • 	 On page 4, the use of the figure of 2.4 million acres is confusing since the following
       statistics are what we actually manage:

As of9/30/2010, we managed 174,998 acres from the FmHA, including 131,401 easement acres
and 43,597 fee acres.

As of 9/30/2010, we managed 3,489,634 easement acres. For its "conservation easements," the
OIG asked us to limit our query to conservation easements, wetland-flowage easements, wetland
easements, grassland easements, and FmHA easements; the total based on that criteria is
3,416,589 managed acres as of9/30/2010.

As of9/30/2010, we managed 2,405,478 acres acquired using MBCF dollars, 198,650 acres
acquired using LWCF dollars, and 153,738 acres acquired using NAWCF dollars.

Comments on Specific Recommendations:

   1. 	 Conduct a workload and workforce analysis ...

In compliance with the recommendations of the Government Accountability Office Report:
Federal Lands: Adopting a Formal, Risk-Based Approach Could Help Land Management
Agencies Better Manage Their Law Enforcement Resources, GA0-11-144. and the Office of
Inspector General Evaluation ofUSFWS Conservation Easement Monitoring and Enforcement
(Assignment No. WR-EV-FWS-0003-2011IG, The National Wildlife Refuge System (NWRS),
Division ofRefuge Law Enforcement has contracted with the International Association of Chiefs
of Police (IACP) to assist in the development of law enforcement risk assessments of each unit
of the National Wildlife Refuge System (NWRS), creation of a threat assessment and threat
matrix, and a restructure and enhancement of the 2004 IACP Deployment Model for the NWRS.
This model, when complete, will allow the Service to better manage law enforcement resources
throughout the NWRS.

One Service Region recommended that this should not apply only to law enforcement personnel
and resources. In that Region most of the easement monitoring and compliance issues are
handled by easement managers (Wildlife Refuge Specialists) and workload and workforce needs
for these entities should be determined as well.

Contact individual/ Target Dates: Jim Hall (703)-358-1895. Contract already awarded.

   2. 	 Evaluate conservation easement violation fines and penalties to assess whether or not
        the penalties sufficiently deter violations, and make subsequent changes to the
        structure as appropriate.

It is the belief of management, as well as that of at least one Assistant United States Attorney
with whom they work, that fines and penalties for conservation easement violations are not
adequate to deter future violations. Therefore, we concur with this recommendation and stand
poised to lead an effort to conduct the evaluation and commit to making the changes as


                                                 2


                                                                                                   18
appropriate.

Contact individual I Target Dates: Jim Hall (703)-358-1895. December 31,2012.


    3. 	 Regularly provide easement location information to USDA.

Region 6's "Easement Manual" for the Prairie Pothole States has an entire section in Chapter V
dedicated to "Actions to Help Prevent Future Violations." This section requires wetland
management district offices to annually provide updated easement information to their local
USDA service offices. Specifically, wetland management districts are to provide county USDA
offices with county maps depicting Service holdings (fee title and easements), and this
information is to be updated each year.

However, this recommendation seems to have been made as a result of USDA's "prevented
planting" program and its potential to encourage bum violations of Service wetland easements.
It is important to understand that the Service will routinely issue bum permits to landowners
wishing to clear vegetation from protected wetlands. Prescribed fire can benefit wetlands by
rejuvenating cattail-choked wetlands and resetting succession to an earlier stage. Consequently,
it is customary to issue these permits on a 3-year rotational basis (landowner can bum a wetland
every third year, or one-third of his wetlands each year). Additionally, as the report states, many
wetland management districts are unable to track bum violations due to an overwhelming
workload consisting of more serious drain and fill violations. It is simply unrealistic at this time
for Service staffs to adequately monitor all bum violations in many areas; it is even more
unrealistic to expect USDA to monitor easement lands to ascertain eligibility for Farm Bill
benefits. Even with perfect monitoring and enforcement of bum violations, we are extremely
skeptic of USDA's willingness to withhold a benefit from a landowner (prevented planting
payment) based on an easement violation, especially in light of the relatively minor
fines/penalties (as mentioned earlier in the report).

Service Region 8 reports that not only should the locations ofFWS easements be provided to
USDA, but the type of easement and corresponding restrictions should also be provided. Since
FWS easement restrictions can vary between properties, regions, etc. it would be important to
provide this information so USDA can determine whether the property is eligible for various
programs. Some USDA conservation programs may be appropriate on FWS easement lands and
may help provide financial incentives to improve habitat. It would also be beneficial to provide
USDA with a FWS point of contact for each easement property.

Contact individual I Target Dates: Jim Hall (703)-358-1895, will be the primary contact for
this action item, but this process will be included in the larger process of a standardized
nation-wide Service policy development. December 31, 2013.

   4. 	 Establish and implement uniform guidance for administering, monitoring, and enforcing
        easements.

The Service stands ready to lead in the development of an over-arching framework, as well as


                                                 3


                                                                                                 19
assist other regions as appropriate in the development of more specific easement administration
and enforcement guidance.

Service Region 8 reports that we may want to include increased Landowner Outreach as a formal
recommendation. Landowner outreach/education which helps remind owners oftheir easement
obligations on a regular basis is a cost effective way to decrease violations and subsequent
enforcement issues.

Contact individual I Target Dates: Jim Hall (703)-358-1895. December 31, 2013.

   5. 	 Document monitoring activities in the easement files.

The report alludes to Service Region 3 & 6's use of the "Chronological List of Events" form in
each easement folder. Over the years, this form has become less useful to officers and managers
in easement administration and enforcement. This is largely because this form is not to be used,
by itself, to document an important event in the easement file. Rather, officers and managers are
to use official Notes to the File and Memoranda to capture and archive relevant information,
including photographs, maps, records of conversations, ground checks, interviews, etc. This
information is to be processed and preserved in such a manner so that it may be used later in a
legal proceeding.

Region 6 monitors approximately 30,000 easement contracts annually. The report points out that
the Sand Lake Wetland Management District alone oversees 4,600 easements. It is not realistic,
nor does it serve any useful purpose, to make a notation in each easement folder annually that
monitoring was completed. Region 6 reports that it has always been, and will continue to be,
their Standard Operating Procedure to monitor the easements that they manage annually.

Contact individual I Target Dates: Jim Hall (703)-358-1895. Already in use.

   6. 	 Develop an automated easement inspection process to record the easement monitoring
        history.

The Service is currently utilizing the Law Enforcement Information Management and Gathering
System (LE-IMAGS), which allows for the automated management of all law enforcement
incidents, including easement enforcement. The Department, over the last 6 years, has been
working on an automated law enforcement incident management program called the Incident
Management and Reporting System (IMARS) which will someday replace the incident
management portion ofLE-IMAGS, but it has not yet been implemented for full field use at this
time, nor is it known if IMARS will have the capability of managing easement enforcement
cases.

Contact individual I Target Dates: Jim Hall (703)-358-1895. Already in use.




                                                4

                                                                                              20
Appendix 4: Status of
Recommendations
Recommendation          Status          Action Required
                                 No further response to OIG is
                                 required. The
                 Resolved; not   recommendations will be
1, 2, and 4,
                 implemented.    referred to the Assistant
                                 Secretary for PMB for tracking
                                 of implementation.
                                 Further information is
                                 required. Please clarify what
                                 information FWS would
                                 require to be reported and
                                 whether it would require all
3                Unresolved.
                                 regions to report this
                                 information regularly. Once
                                 the OIG receives clarification,
                                 we will reassess the status of
                                 this response.
                                 Further information is
                                 required. Please clarify how
                                 FWS plans to document
5                Unresolved.     monitoring activities. Once the
                                 OIG receives clarification, we
                                 will reassess the status of this
                                 response.
                                 Further information is
                                 required. Please clarify how
                                 FWS plans to document its
6                Unresolved.     monitoring history. Once the
                                 OIG receives clarification, we
                                 will reassess the status of this
                                 response.




                                                             21
                                   


            Report Fraud, Waste,                                     
            and Mismanagement
                                      
                 Fraud, waste, and mismanagement in
                 government concern    everyone: Office
               of Inspector General staff, Departmental
                employees, and the general public. We
                   actively solicit allegations of any
                          and wasteful practices, fraud,
               inefficient
                    and mismanagement related to
              
                Departmental or Insular Area programs
                                                        
                    and operations.  You can report
                   allegations to us  in several ways.
                                       
                                   
                                   
     By Mail:	         U.S. Department of the Interior  
                       Office of Inspector General  
                       Mail Stop 4428 MIB  
                       1849 C Street, NW  
                       Washington, D.C. 20240  
      
               
     By Phone:	        24-Hour Toll Free                               
                                                           800-424-5081
                       Washington Metro Area               202-208-5300
                                                                       
      
               
     By Fax:	          703-487-5402
      
     By Internet:	     www.doioig.gov
  
                                                                           
